HHS/OIG, Audit -"Audit of Costs Claimed for the Statewide Automated Child Welfare
Information System in California, Santa Clara County, January 1, 1999, Through June 30, 2003,"(A-09-04-00068)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Claimed for the Statewide Automated Child Welfare
Information System in California, Santa Clara County, January 1, 1999, Through
June 30, 2003," (A-09-04-00068)
April 7, 2006
Complete
Text of Report is available in PDF format (688 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether costs that Santa Clara County claimed for Title IV-E
reimbursement were allowable under Federal and State regulations.  During the period
January 1, 1999, through June 30, 2003, Santa Clara claimed $572,927 that was not allowable
pursuant to Federal and State regulations, and we could not determine the allowability of
the remaining $6,148,440.
We recommended that the State: (1) refund the $286,464 Federal share of unallowable costs
claimed; (2) work with ACF to determine what portion of the $6,148,440 ($3,074,220 Federal
share) is allowable under Title IV-E and refund the Federal share;  (3) review costs
that Santa Clara claimed subsequent to the audit period for similar issues and refund the
Federal share of any unallowable costs identified; and (4) instruct Santa Clara to strengthen
its internal controls.  The State agreed to refund $279,042 (Federal share), but did
not concur with $14,844 of the $572,927 of unallowable costs.  The State also did not
concur with the second recommendation, but did agree with the last two.